                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMOMNDUM

     Case Number: A09060046                                                         11           Page 1 of 1



                   We received an allegation that a PI' made inaccurate statements in his proposal.2 The first
           allegation involved scientific statements made by the PI in his proposal. Review of the proposal
           demonstrated that the PI did not make demonstrably false scientific statements in his proposal, but
           rather he cited sources that were less supportivethan others. The second allegation involved whether
           the PI'S former doctoral student3was actually funded under a 2004 NSF grant.4 Evidence provided
           by the PI demonstrates that the doctoral student did participate in research funded by the 2004 grant,
           despite graduating in 2002 and moving to another institution to complete his post-doctorate. Thus,
           there is no substance to these allegations.

                     Accordingly, this case is closed.




I'
 NSF OIG Form 2 (1 1/02)
